               EVALUATION OF
           THE WELFARE-TO-WORK
      COMPETITIVE GRANT AWARD PROCESS
          (ROUNDS TWO AND THREE)




EMPLOYMENT AND TRAINING ADMINISTRATION
   ______________________________________________




                                          Report No. 2E-03-386-0002
                                                                                              Date Issued: September 29, 2000


                                                    TABLE OF CONTENTS




ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDING AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     ETA Could Have Been More Effective
     in Implementing the WtW Grant Award Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          a.     Timeliness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          b.     Assistance to prospective and actual grantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


APPENDIX A

          ETA’s Written Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14




                                                                        i
                                 ACRONYMS AND GLOSSARY

ACRONYMS

CBO         -        Community Based Organization

CFR         -        Code of Federal Regulations

DOL         -        U.S. Department of Labor

ETA         -        Employment and Training Administration

GOTR        -        Grant Officer’s Technical Representative

OIG         -        Office of Inspector General

OGCM        -        Office of Grant and Contract Management

SGA         -        Solicitation for Grant Application

TANF        -        Temporary Aid to Needy Families

WIB         -        Workforce Investment Board

WTW         -        Welfare-to-Work


                                            GLOSSARY

Work First: The primary focus of “Work First” is based on the TANF concept of placing individuals in
            employment activities. The “Work First” approach recognizes that individuals may be
            provided, when appropriate, with educational and skill based training that is job related.
            Other services may also be provided to ensure lasting employment and the achievement of
            self-sufficiency.



                                                   ii
                                      EXECUTIVE SUMMARY

At the request of the Senate Committee on Small Business, Senator Christopher S. Bond, Chairman,
we conducted this evaluation to assess the effectiveness of the Welfare-to-Work (WtW) Rounds Two
and Three competitive grant award process. This evaluation is a follow-up to our previous evaluation
of the WtW Round One competitive grant award process (OIG Evaluation No. 2E-03-386-0001).
The current evaluation was designed to examine the WtW grant award process, and provide
information on lessons learned and recommendations for any necessary improvements in ETA’s future
competitive grant award process.

The WtW program assists States and local communities to provide the transitional employment
assistance needed to move hard-to-employ recipients of Temporary Assistance to Needy Families
(TANF) into lasting unsubsidized jobs (self-sufficiency). WtW grants are targeted to assisting those
TANF recipients, and certain non-custodial parents, who have experienced, or have characteristics
associated with, long-term welfare dependence.


 RESULTS OF EVALUATION

ETA took steps to improve the grant award process for Rounds Two and Three. We were told by
grantees that the steps taken increased the overall effectiveness of the WtW competitive grant award
process. However, based on our analysis and additional information provided by the grantees, we
identified areas where the competitive grant award process could be improved.

FINDING - ETA COULD HAVE BEEN MORE EFFECTIVE IN
          IMPLEMENTING THE WtW GRANT AWARD PROCESS

We found that ETA could have been more timely and provided more useful assistance to prospective
and actual grantees.

Timeliness. Our examination of the WtW competitive grant processing time disclosed that the
average number of days between the close of the Solicitation for Grant Applications (SGA) and the
award of the WtW grants increased between Rounds One, Two and Three. We believe this increase
in ETA processing time ultimately delayed the delivery of services to TANF recipients.

We found that for Round One it took 57 days; for Round Two, it took 92 days; for Round Three, 102
days. ETA attributed this increase in processing time to: (1) additional services provided to applicants,
(2) an increase in familiarity with rules and regulations, and (3) an increase in the number of applications
received for Rounds Two and Three.

In our view, the explanations provided by ETA do not adequately address the increase in WtW grant
award process time. While the number of applications increased between Rounds One and Two, there
was a significant decrease between Rounds Two and Three, thereby casting doubt on this explanation.

                                                     iii
Additionally, any increase in ETA’s familiarity with rules and regulations should have decreased the
grant award process time.
Assistance to prospective and actual grantees. As part of our evaluation process, we interviewed
grantees to obtain information regarding the effectiveness of the WtW competitive grant award process.
Overall, grantees expressed satisfaction with the services provided by ETA. However, several
grantees told us that ETA could have provided more useful assistance during the competitive grant
award process. Following are examples suggested by the grantees where ETA could have provided
additional assistance.

1. ETA could have provided additional assistance to grantees in their coordination and development
   of working relationships with State and local TANF agencies. We were told by many grantees that
   TANF agencies inhibited the overall effectiveness of the WtW program by withholding referrals and
   serving clients themselves. Ultimately, this results in TANF recipients being denied the maximum
   assistance and services available to them. Furthermore, the grantees face additional obstacles in
   meeting their established goals and objectives under their WtW grant.

2. Terminology and criteria such as Work First Principle and Innovation could have been more clearly
   defined. (This is a repeat finding from our previous evaluation and is being provided for
   informational purposes only.)

3. Training sessions (Bidder’s conferences) could be localized, provided more frequently, and
   advertised in a more effective manner. These actions would allow more community based
   organizations, who may have limited funding, to travel to the session to attend.

4. The website could have been organized in a more user friendly manner which would allow grantees
   to obtain needed information without having to search through information unrelated to their
   individual needs. Grantees told us that the information could have been organized by topical areas.
   Further, many grantees complained that the website was frequently unaccessible due to technical
   difficulties.

5. ETA’s Grant Officer’s Technical Representatives (GOTRs) can provide more effective assistance.
   Many grantees told us that the GOTRs did not always provide timely responses to their questions
   and concerns. Several grantees told us that ETA has not adequately defined the role of the GOTR.


 RECOMMENDATIONS

We believe that ETA needs to consider the suggestions made by the grantees in order to improve the
current WtW program and to become more efficient and effective in future competitive grant award
processes. We recommend that ETA:

1. Develop and implement a tracking system for each step of the grant application award process to

                                                  iv
    identify issues affecting efficiency and effectiveness.

2. Provide additional assistance to grantees in coordinating and developing working relationships with
   State and local TANF agencies.

3. Consider offering Bidders’ conferences at additional locations and advertising the specific
   conferences in the SGA.

4. Improve the organization of the various categories within the website and implement a system to
   adequately recognize and address any technical problems.

5. Instruct GOTRs to provide grantees with timely responses to their questions and concerns. We
   also recommend that ETA adequately define the role of the GOTR to grantees.


 ETA COMMENTS

The report should note that despite the identified concerns, the Grant Management process was
conducted in an effective manner. This seems to be obscured by the report's finding which states
that “ETA could have been more effective in implementing the WtW grant award process.” In
addition, we observed that the evaluation was devoid of GOTR input, yet the report reflects
negatively on the GOTRs involvement in the administration of the grants, based solely on
comments received from selected grantees.

In the exit conference, ETA was surprised to hear that the OIG had decided to expand its
mandate to cover ETA “assistance to prospective and actual grantees” versus the more singular
focus of your Round One review on the selection process alone. Nonetheless, we are pleased to
note your conclusion that “Overall, grantees expressed satisfaction with the services provided
by ETA.”

ETA is concerned, however, that the draft mentions that “several grantees told us that ETA
could have provided more useful assistance during the competitive grant award process.” One
hundred and forty-one grant awards were made as a result of the Round Two and Three WtW
competitions. While all of our customers are important to us, as well as their advice, it is
unclear whether the “several” grantees you mention reflect an adequate picture of the universe
of Round Two and Three awardees. It is of interest to us how many of the 141 were visited and
expressed the need for more useful assistance.


 OIG’s RESPONSE

While ETA is correct in noting that there were many positive accomplishments in the Rounds One, Two

                                                      v
and Three competitive grant award processes, based on our analysis and additional information
provided by the grantees, we identified areas where the competitive grant award process could be
improved.

ETA incorrectly stated that the evaluation was devoid of GOTR input. We interviewed GOTRs during
the course of our evaluation and considered their input in reaching our conclusions. It is perplexing that
ETA stated that the report reflects negatively on the GOTRs, yet in interviews and documentation
provided to the OIG, ETA agreed that GOTRs can provide more effective assistance and stated in its
written response to the draft report that “many GOTRs assigned regionally to WtW grantees are less
experienced (the more seasoned having been drawn off to oversee the implementation of the
Workforce Investment Act).”

As stated in the Purpose and Methodology section of this report, we sampled 31 grantees from Rounds
two and three (approximately 22 percent). The sampled grantees represented all five of the WtW
regions identified in the Solicitation for Grant Applications. Of the 31 grantees which we interviewed,
the vast majority (approximately 70 percent) expressed the need for more useful assistance. Detailed
results of the 31 grantees response to each of the five areas where ETA could have provided more
useful assistance is located in the Finding and Recommendation section of this report.

                                              - - - - -

A summary of ETA’s response to our finding, as well as our comments, is included in the finding and
recommendations section of this report. ETA’s complete written response is attached as Appendix A.




                                                    vi
                                          BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act, passed in 1996, reformed the
nation's welfare laws. It created a new system of block grants to the States for Temporary Assistance
for Needy Families (TANF), changing the nature and provision of welfare benefits in America. One of
the primary goals of the new welfare laws was to move people from welfare towards self-sufficiency by
providing lasting, unsubsidized jobs. The Balanced Budget Act of 1997 helped to achieve this purpose
by authorizing the Department of Labor to provide Welfare-to-Work (WtW) Grants to States and local
communities, in order to create additional job opportunities for the hardest-to-employ TANF
recipients. These grants have provided many welfare recipients with job placement services,
transitional employment, and other support services needed to make the successful transition into long-
term unsubsidized employment. On November 29, 1999, the President signed the WtW and Child
Support Amendments of 1999 which make programmatic changes that simplify eligibility for the WtW
program.

The WtW grants totaled $3 billion during fiscal years 1998 and 1999. There are two kinds of grants:
(1) Formula Grants to States, and (2) Competitive Grants to local communities. Grantees have up to
three years to spend the funds. As of October 1, 1999, the WtW program has allocated all of its grant
funds to States, communities and tribes. The 25 percent of funds not allocated by formula were used
for competitive grants awarded directly by the Secretary of Labor to local governments, private
industry councils, and other entities (such as community development corporations and community-
based organizations, community action agencies, and other private organizations) that applied in
conjunction with a Private Industry Council or local government. The Secretary of Labor gave special
consideration to cities with large concentrations of poverty as well as to rural areas.

According to the Balanced Budget Act of 1997, at least 70 percent of grant funds must be expended to
provide services to long-term TANF recipients who meet two of three specified barriers to
employment and to non-custodial parents who meet the barriers and whose children are long-term
TANF recipients. The 1999 WtW Amendments remove the requirement that the long-term TANF
recipients must meet additional barriers to employment. Therefore, TANF recipients are eligible if they
have received assistance for at least 30 months, if they are within 12 months of reaching their TANF
time limit, or if they have exhausted their receipt of TANF due to time limits.

In addition, under the 1999 WtW Amendments, non-custodial parents are eligible if they meet the
following requirements. First, they must be unemployed, underemployed, or having difficulty making
child support payments. Second, their minor children are eligible for, or receiving, TANF benefits (with
a priority for parents with children who are long-term TANF recipients); have received TANF benefits
during the preceding year; or are eligible for, or receiving, assistance under the Food Stamps program,
the Supplemental Security Income program, Medicaid, or the Children's Health Insurance Program.
Third, they must enter into a personal responsibility


                                                   1
contract under which they commit to cooperate in establishing paternity, paying child support, and
participating in services to increase their employment and earnings to enable them to support their
children.

The amendments also require grantees to consult with domestic violence organizations in developing
projects to serve non-custodial parents. Also under the Balanced Budget Act of 1997, projects may
also spend up to 30 percent of grant funds on TANF recipients and non-custodial parents who have
characteristics associated with long-term dependency. Although the WtW Amendments of 1999 delete
the non-custodial parent provision from this category, it adds youth who have formerly received foster
care services, custodial parents with incomes below the poverty line, and TANF recipients who face
barriers to self-sufficiency under criteria established by the local workforce investment board or private
industry council.

The Senate Committee on Small Business, chaired by Senator Christopher S. Bond, expressed
concerns regarding the awarding of the WtW competitive grants. Senator Bond requested that the
OIG assess DOL on: (1) the competitive grant making process, including an examination of due
diligence, (2) whether the WtW grantees were allowed to correct identified deficiencies before federal
funds were awarded, and (3) the implementation of all OIG suggested recommendations.




                                                    2
                               PURPOSE AND METHODOLOGY


 PURPOSE

At the request of the Senate Committee on Small Business, Senator Christopher S. Bond, Chairman,
we conducted this evaluation to assess the effectiveness of the Welfare-to-Work (WtW) Rounds Two
and Three competitive grant award process. This evaluation is a follow-up to our previous evaluation
of the WtW Round One competitive grant award process (OIG Evaluation No. 2E-03-386-0001).
The current evaluation was designed to examine the WtW grant award process, and provide
information on lessons learned and recommendations for any necessary improvements in ETA’s future
competitive grant award process.


 METHODOLOGY

Our methodology included: 1) interviews with ETA Office of Grant and Contract Management and
Office of Adult Services/WtW staff, 2) reviews of Federal documents, and
3) interviews with randomly selected grantees from Rounds Two and Three.

Review of Federal Policies and Interviews with ETA Staff

We outlined the grant selection process by interviewing ETA staff and examining the following grant
related documents: a) the SGA, b) the Interim Final Regulation of the WtW program, c) the Procedural
Guidance For Panel Review For Solicitation For Grant Application, d) Employment and Training Order
Number 2-87 concerning procurement management, and
e) the General Records Schedule 3 for Procurement, Supply and Grant Records.

These documents formed the foundation for our analysis of ETA’s compliance with Federal Regulations
and shaped many of the findings and recommendations given to ETA concerning both the pre-award
grant selection process and records maintenance.

Review of Solicitation for Grant Application

Our review of the Solicitation for Grant Application identified five weighted criteria (Relative Need for
Assistance, Innovation, Outcomes, Local Collaboration and Sustainability, and Demonstrated
Capacity) and the “Areas of Special Interest”.

Statistical Sampling of Awarded Grant Applicants

We used the database provided by ETA to identify awarded grant applicants for Rounds 2 and 3.


                                                    3
Using a proportional allocation formula with a weighted sample design, we generated a random sample
of grantees to interview.


ETA’s Office of Grant and Contract Management (OGCM) awarded a total of 75 grants in Round
Two and 64 grants in Round Three. We sampled 31 grantees encompassing both rounds, each of the
sampled organizations are representative of the five WtW regions identified in the Solicitation for Grant
Application.

We conducted our review in accordance with the Quality Standards for Inspections published by the
President’s Council on Integrity and Efficiency.




                                                    4
                             FINDING AND RECOMMENDATIONS


 FINDING - ETA COULD HAVE BEEN MORE EFFECTIVE IN
           IMPLEMENTING THE WtW GRANT AWARD PROCESS

We found that ETA could have been more timely and provided more useful assistance to prospective
and actual grantees.

TIMELINESS

Our examination of the WtW competitive grant processing time disclosed that the number of days
between the close of the Solicitation for Grant Applications (SGA) and the award of the WtW grants
increased between Rounds One, Two and Three. We believe this increase in ETA processing time
ultimately delayed the delivery of services to Temporary Aid to Needy Family (TANF) recipients.

As shown by the following graphs, we found that for Round One it took 57 days for ETA to process
WtW grant applications and announce grant awards; for Round Two, it took 92 days; for Round
Three, 102 days. This increase in processing time occurred despite the fact that the number of
applications processed by ETA decreased between Rounds One and Three.




ETA attributed this increase in processing time to: (1) additional services provided to applicants, (2) an
increase in familiarity with rules and regulations, and (3) an increase in the number of applications
received for Rounds Two and Three. We do not believe that the explanations provided by ETA
adequately address the increase in WtW competitive grant award process time.

While the number of applications increased between Rounds One and Two, there was a significant
decrease between Rounds Two and Three, thereby casting doubt on this explanation. Additionally, in


                                                    5
our view, any increase in ETA’s familiarity with rules and regulations should have decreased the grant
award process time.
ETA Comments

The report failed to capture all of the explanations provided to the OIG evaluators, and, thus,
rendered an unfounded conclusion. For example, it was explained that new requirements were
added to Rounds two and three. Specifically, for each application that received a rating within
the competitive range, DFA was required, according to the SGA, to conduct a past performance
review for these applicants. In round two, 348 of the 682 application fell within this category.
ETA sought confirmation of the applicants’ performance history before making grant awards,
and this took considerable time and effort. In addition, the report should consider the fact that
ETA is constantly saddled with multiple and/or overlapping solicitations and other competing
priorities which deplete staff resources and, thus, require the discretionary use of staff time for
some activities over others.

OIG’s Response

The report accurately reflects the explanations previously provided by ETA. In its written response to
the draft report, ETA adds the explanation that new requirements were added to Rounds two and three
such as conducting a past performance history. According to ETA’s Special Program Services Unit,
the same past performance review/responsibility review was conducted for all three rounds. In our
view, this explanation does not adequately address the increase in WtW grant application processing
time.

We appreciate that ETA has competing priorities in executing other solicitations; however, ETA has the
responsibility for processing grant applications in an efficient and timely manner.

ASSISTANCE TO PROSPECTIVE AND ACTUAL GRANTEES

As part of our evaluation process, we interviewed grantees to obtain information regarding the
effectiveness of the WtW competitive grant award process. Overall, grantees expressed satisfaction
with the services provided by ETA. However, several grantees told us that ETA could have provided
more useful assistance during the competitive grant award process. Following are examples suggested
by the grantees where ETA could have provided additional assistance.

1. ETA could have provided additional assistance to grantees in their coordination and
   development of working relationships with State and local TANF agencies. We were told
   by many grantees that TANF agencies inhibited the overall effectiveness of the WtW
   program by withholding referrals and serving clients themselves. Ultimately, this results
   in TANF recipients being denied the maximum assistance and services available to them.
   Furthermore, the grantees face additional obstacles in meeting their established goals and


                                                   6
    objectives under their WtW grant. A total of 22 out of the 31 grantees (or 71%) that we
    interviewed told us that ETA could have provided additional assistance.

Many grantees stated that local TANF agencies felt that they were in competition for clientele. These
grantees believe that ETA could provide additional assistance to identify and mediate those potential
conflicts. Some State TANF agencies and WtW competitive grantees have been very pro-active in
addressing these issues. Many grantees would like to see ETA, along with their Health and Human
Services grant counterpart, take a lead in thoroughly clarifying each entity’s function.

2. Terminology and criteria such as Work First Principle and Innovation could have been
   more clearly defined. (This is a repeat finding from our previous evaluation.) A total of
   27 out of the 31 grantees (or 87%) that we interviewed told us that ETA could have
   provided additional assistance.

We found that many of the established Community Based Organizations (CBO’s), Local Private
Industry Council/Workforce Investment Boards (WIB’s), and local TANF agencies who had previous
experience working with Federal Grant Solicitations had little problem understanding the “Work-First”
legislative requirement or the term “innovative”. However, grassroots CBO’s and non-traditional/first-
time grantees told us they had problems with this terminology and criteria. Grantees told us that it
would be useful if the “Work-First Principle” was included in the program criteria section of the SGA.
Regarding innovation, many grantees had different perceptions of what “innovation” meant. Grantees
noted that the spirit of “innovation” meant that ETA was soliciting applicants to create a new program
and service delivery system.

3. Training sessions (Bidder’s conferences) could be localized, provided more frequently, and
   advertised in a more effective manner. These actions would allow more community based
   organizations, who may have limited funding, to travel to the session to attend. A total of
   24 out of the 31 grantees (or 77%) that we interviewed told us that ETA could have
   provided additional assistance.

ETA sponsored five live Bidders’ conferences in several locations. Bidders’ conferences were also
broadcasted to community colleges and other community accessible venues. Many grantees expressed
concern that grassroots CBO’s and those with limited funds were at a disadvantage because they did
not have the resources to attend either a live conference or a telecast at one of the alternative venues.
Further, ETA should have provided dates and locations of the Bidders’ conferences in the SGA.

4. The website could have been organized in a more user friendly manner which would allow
   grantees to obtain needed information without having to search through information
   unrelated to their individual needs. Grantees told us that the information could have been
   organized by topical areas. Further, many grantees complained that the Website was
   frequently unaccessible due to technical difficulties. A total of 18 out of the 31 grantees
   (or 58%) that we interviewed told us that ETA could have provided additional assistance.


                                                    7
ETA’s WtW website was used by grantees for both pre-award guidance and as a post-award
programmatic resource. Many grantees expressed concern over website’s technical problems and felt
that the website’s question and answer (Q&A) section could be better organized.
Grantees told us that they had to read through numerous unrelated Q&A’s before finding answers to
their specific questions. Grantees stated that the current process leads to inefficiency and frustration
because of the required effort to find the answers to their questions. Grantees believe that it would
useful if ETA organized the question and answer section by descriptive topical categories.

5. ETA’s Grant Officer’s Technical Representatives (GOTRs) can provide more effective
   assistance. Many grantees told us that the GOTRs did not always provide timely
   responses to their questions and concerns. Several grantees told us that ETA has not
   adequately defined the role of the GOTR. A total of 17 out of the 31 grantees (or 55%)
   that we interviewed told us that ETA could have provided additional assistance.



 ETA Comments and OIG Response to Items Related
 to Assistance to Prospective and Actual Grantees

ETA Comments

Item 1. In the OIG debriefing, ETA described the process it undertook to address the issue of
additional assistance to grantees in their coordination and development of working relationships
with State and local TANF agencies. ETA was surprised that none of what was outlined was
included in the draft report.

In brief, ETA told OIG representatives that ETA was aware of this problem early on. It is not a
Round One, Two or Three selection process issue. Rather, it reflects the much larger scale
problem of the paradigm shifts necessary in order to take welfare recipients out of the income
maintenance system and put them into the workforce development system where most
Americans can look for and find work and career advancement. It means the creation of
completely new roles and relationships between the TANF and WtW systems on the federal,
State and local level. In the past, these systems have not worked closely together. ETA has been
attempting to address this complex issue long before OIG's articulation of it as a selection
process issue in its draft report.

ETA met with the Assistant Secretary of Health and Human Services for ACF Olivia Golden and
the TANF Director to discuss the problem in Spring of 1999. All agreed upon having their
regional offices (ETA and ACF) jointly convene TANF and WtW service providers at the State


                                                   8
and local levels nationwide into special problem solving conferences to identify ways they could
more effectively work together.


As ETA explained during the OIG debriefing, the ETA/ACF strategy was to bring the WtW and
TANF systems together immediately in local meetings across the country, thereby opening
channels of communication and assuring that the Welfare-to-Work Grants Program legislative
message of cooperation was reinforced. In addition, both agencies enlisted these local delivery
systems into the creation of the joint guidance so that the product would be grass-roots
developed, practical, and validated as achievable by those who would be expected to carry it
out. It was understood by all that the outcomes of these regional meetings would be translated
into joint guidance which would be issued simultaneously by both agencies.

In May of this year, the joint guidance was simultaneously issued by both agencies. It was
entitled "Joint Guidance on Strategies to Enhance the Recruitment, Referral, Eligibility
Determination, and Service Provision Processes Between Welfare-to-Work, Temporary
Assistance for Needy Families, and Child Support Enforcement Entities." Both agencies
continue to reinforce this message and cross train staff.

OIG Response

We acknowledge that ETA provided additional assistance in their coordination and development of
working relationships with State and local TANF agencies. Despite these efforts, grantees expressed
to the OIG that problems continue to exist. ETA needs to continue providing additional assistance and
its expertise.

ETA Comments

Items 2 and 3. In regards to the finding on terminology and criteria, and the training sessions,
as the OIG knows, all WtW funds authorized by Congress have been distributed so that ETA will
not be writing additional WtW solicitations nor holding additional WtW bidders' conferences.
ETA described in detail to your staff, during debriefing, how according to ETA's principle of
continuous improvement we incorporated all learning from each previous competition into the
next. The full extent to which ETA made these efforts increasingly user friendly is not captured
in the report. For our third and final competition:

•   ETA held five procurement bidders' conferences nationwide over two weeks. These
    conferences were consciously and strategically spread across the country in easy- to- get- to
    central locales - New York City, Atlanta, Los Angeles, El Paso, and Detroit.

•   These conferences were held in non-traditional settings to attract more community-based

                                                  9
    organizations into the applicant pool. The sessions were held at an Historically Black
    College, at an Hispanic College, at a community-based organization itself, and at an
    employers headquarters (Con Edison headquarters in Manhattan - arranged for by a
    community-based organization, the National Puerto Rican Forum).


•   To clarify concepts such as work first and innovation as well as to provide examples and
    opportunities for questions, these bidders' conferences included presentations by
    community-based organization winners from our previous WtW grant competitions. These
    current grantees were able to demonstrate concepts in practice by describing what they do
    and how they do it. This showcasing of successful grant features was included to assure that
    abstract ideas were made very clear through practical models.

•   The bidders' conferences were announced by hard copy, multi- color brochures which were
    provided to each of our Regional Offices (ETA and TANF) which distributed them to
    community- based organizations throughout their territory. The brochure was also posted on
    the WtW Internet Website.

•   The conferences were not announced in the Solicitation for Grant Award because final
    arrangements for nontraditional locations, and availability of successful Round One and Two
    grantee presenters were not yet confirmed. This information was posted on the Website and
    provided to our Regions as soon as it was confirmed.

•   In addition, WtW Office staff video recorded a generic bidder's conference in the Department
    of Labor's media center. This video was satellite broadcast to all community colleges
    throughout the country through an agreement with the American Association of Community
    Colleges. The broadcast was publicized by our Regional offices and via our Internet Website
    and by each of our regional offices. It is difficult to understand how "many" grantees were
    unable to arrange to attend a telecast at a community college. We chose to use the
    community college system because it is nationwide, ubiquitous, and closely aligned to
    community- based organizations.

•   A special 25 page step-by-step publication entitled "Your Guide to Preparing a Quality
    Welfare-to-Work Competitive Grant Application" was created and provided to our Regional
    Offices for nationwide distribution prior to the bidders' conferences and the broadcast. The
    guide was also posted on and downloadable from our Internet Website. It was used as a
    follow along workbook for those attending the conferences or viewing the video.

•   After bidders conferences, questions and answers which surfaced were posted on the WtW
    Internet Website.

Given available resources (no funds were authorized under the Balanced Budget Act of 1997 for

                                                10
WtW Grants Program technical assistance - all dollars were programmatic and distributed to
State and local venues) and the time frames necessary to mount this $3 billion program (the
issuance of regulations within 90- days, two nationwide Formula Grant planning and review
cycles and three national competitions within the two years allowed for obligation of funds), we
believe that ETA has done a remarkable job.




OIG Response

Again, we acknowledge that ETA took steps to incorporate lessons learned from previous competitions
into the next rounds. However, in relation to ETA’s training sessions (bidder’s conferences), the
majority of grantees told us that additional assistance could have been provided to prospective and
actual grantees. This information is being provided to ETA for potential use in future grant application
award processes.

ETA Comments

Item 4. As far as the OIG finding regarding the Website, immediately after the bidders'
conferences, ETA posted a special questions and answers section reflecting what was covered at
the conferences themselves. A conscious choice was made not to integrate this information into
our topically organized regular question and answer system, so that all prospective bidders
(whether they attended a conference or not, whether they saw the broadcast or not) could get
the same information without having to search for it.

Since then, the special questions and answers have been integrated into our ongoing system.
That system has been reorganized to become more user friendly based upon feedback received
from grantees, and new entries are clearly identified as "new" with introductory language on the
main page indicating the types of new information which has been posted.

We are unaware that there were particular technical difficulties with our Website during the
competition. On the contrary, we received constant customer feedback on how much easier it
was to get information via Internet than by calls to ETA's Grants Office (for which WtW is only
one of hundreds of procurements they administer with hundreds of callers who often must leave
their questions on voice mail). To increase the scope and pace of information sharing, ETA often
took messages from the Grant Office's voice mail and turned them into questions and answers
posted on the WtW Website system.

OIG Response

We acknowledge that ETA has taken several steps to improve the usability of the website. Based on
our interviews with grantees, additional suggestions are being provided to assist ETA in its on going

                                                  11
effort to improving website usability.

ETA Comments

Item 5. Finally, regarding the issue of the GOTRs, although all GOTRs must got through
training prior to undertaking their responsibilities, this finding and recommendation indicate
that their training and preparation need to be improved. We will work with our Regional Offices
to make changes to address this problem.


OIG Response

We commend ETA in taking initial steps to address this issue.




                                                  12
 RECOMMENDATIONS:

 We believe that ETA needs to consider the suggestions made by the grantees in order to improve the
 current WtW program and to become more timely, efficient and effective in future competitive grant
 award processes. We recommend that ETA:

 1. Develop and implement a tracking system for each step of the grant application award process to
    identify issues affecting efficiency and effectiveness. This recommendation is considered
    unresolved. To resolve this recommendation, please provide a copy of ETA’s specific
    action plan for implementation of a tracking system by December 22, 2000.

 2. Provide additional assistance to grantees in coordinating and developing working relationships
    with State and local TANF agencies. This recommendation is considered unresolved. To
    resolve this recommendation, please provide a copy of ETA’s action plan for providing
    additional assistance to WtW grantees by October 27, 2000.

 3. Consider offering Bidders’ conferences at additional locations and advertising the specific
    conferences in the SGA. This recommendation is considered resolved. To close this
    recommendation, please provide a copy of ETA’s action plan for publishing any future
    Bidders’ conference locations in all SGA by December 22, 2000.

 4. Improve the organization of the various categories within the website and implement a system to
    adequately recognize and address any technical problems. This recommendation is
    considered resolved. To close this recommendation, please provide a copy of ETA’s
    action plan for updating and maintaining its WtW website by October 27, 2000.

 5. Instruct GOTRs to provide grantees with timely responses to their questions and concerns. We
    also recommend that ETA adequately define the role of the GOTR to grantees. This
    recommendation is considered resolved. To close this recommendation, please provide
    a copy of ETA’s action plan for improving GOTR assistance to grantees at the regional
    level by November 22, 2000.




Contributors to this report:

Daryll D. Butler


                                                 13
Nigel R. Gardner

Gregory D. Simmons, Director, Division of Evaluations and Inspections




                                                 14
      Appendix A
ETA’s Written Response




          15
